               9  

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     EPA Did Not Conduct
                     Thorough Biennial
                     User Fee Reviews
                     Report No. 14-P-0129                    March 4, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                Paul Curtis
                                                    Arthur Budelier
                                                    Sheree James
                                                    Denise Patten
                                                    Wendy Swan




Abbreviations

CFO            Chief Financial Officer
CFO Act        Chief Financial Officers Act of 1990
EPA            U.S. Environmental Protection Agency
FY             Fiscal year
GAO            U.S. Government Accountability Office
IOAA           Independent Offices Appropriation Act
NPDES          National Pollutant Discharge Elimination System
OCFO           Office of the Chief Financial Officer
OFM            Office of Financial Management
OIG            Office of Inspector General
OMB            Office of Management and Budget
ORD            Office of Research and Development
SFFAS          Statement of Federal Financial Accounting Standards



Hotline 	                                      Suggestions for Audits or Evaluations
To report fraud, waste or abuse, contact       To make suggestions for audits or evaluations, 

us through one of the following methods:       contact us through one of the following methods:


email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
phone:    1-888-546-8740                       phone:    1-202-566-2391
fax:      1-202-566-2599                       fax:      1-202-566-2599
online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

write:	   EPA Inspector General Hotline        write:    EPA Inspector General Hotline 

          1200 Pennsylvania Avenue, NW 
                 1200 Pennsylvania Avenue, NW
          Mailcode 2431T                                 Mailcode 2431T 

          Washington, DC 20460
                          Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                 14-P-0129
                                                                                                            March 4, 2014
                        Office of Inspector General


                        At a Glance
Why We Did This Review              EPA Did Not Conduct Thorough
We performed this audit to          Biennial User Fee Reviews
determine whether the
U.S. Environmental Protection        What We Found
Agency (EPA) conducts
biennial reviews of the             The EPA did not conduct thorough biennial user
agency’s user fees and                                                                      The EPA may not have
                                    fee reviews for fiscal years 2008–2009 and 2010–        recovered all program costs
royalties programs, and
                                    2011, and did not review all agency programs to         and collected millions of
reviews all agency programs                                                                 dollars that could have been
                                    determine whether they should assess fees for
to determine whether fees                                                                   available to reduce the
                                    government services they provide. The EPA did
should be assessed for                                                                      federal budget deficit.
                                    not fully comply with the requirements to:
government services they
provide.
                                          Conduct cost reviews to determine the full cost of providing a service.
The Chief Financial Officers              Report biennial review results to OMB.
Act of 1990 (CFO Act) directs             Request user fee exceptions by letter to the OMB Director.
the Chief Financial Officer               Review all programs for fee potential.
(CFO) to review, on a biennial
basis, the agency’s fees and        The EPA’s OCFO did not fully oversee the biennial reviews or provide internal
other charges for services          review guidance, and the EPA’s program offices were not fully aware of biennial
provided. Office of                 review requirements. Consequently, the EPA may not have recovered millions of
Management and Budget               dollars in program costs and collected funds that could have been available to
(OMB) Circular A-25 provides        reduce the federal budget deficit. We identified an EPA program—the Office of
for federal user fee reviews.       Water’s National Pollutant Discharge Elimination System (NPDES) program—with
The EPA’s Office of the Chief       the potential to charge fees up to $8.9 million per year to recover its costs of
Financial Officer (OCFO)            providing a service.
oversees the EPA program
offices’ biennial user fee          The EPA began improving its biennial review process with the fiscal years 2012–
reviews.                            2013 review by issuing a biennial user fee review guide, training user fee program
                                    personnel on biennial reviews, and increasing headquarters oversight of reviews.
This report addresses the
following EPA theme:                 Recommendations and Planned Agency Corrective Actions

  Embracing EPA as a high          We recommend that the CFO discuss biennial user fee results in the Agency
   performing organization.         Financial Report, coordinate requests for an exception to charging fees, and
                                    request fee exception programs to provide complete information about program
                                    fees and costs and help determine whether fees should be assessed. We also
                                    recommend that the Office of Water conduct an analysis to determine the EPA’s
                                    full cost of issuing NPDES permits and determine whether it should charge fees
For further information,            for the permits. We had also recommended that the Office of Water propose a
contact our public affairs office   regulation to allow the EPA to charge NPDES permit fees, as appropriate.
at (202) 566-2391.
                                    The agency concurred and provided acceptable corrective actions and milestone
The full report is at:
                                    completion dates for all recommendations except one—to propose a regulation to
www.epa.gov/oig/reports/2014/
20140304-14-P-0129.pdf              allow the EPA to charge NPDES permit fees. We revised our recommendation by
                                    removing the proposal for a regulation to charge NPDES fees and adding the
                                    option for requesting an exception to fees, to which the Office of Water agreed.
                          UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       WASHINGTON, D.C. 20460


                                                                                        THE INSPECTOR GENERAL




                                             March 4, 2014

MEMORANDUM

SUBJECT:	 EPA Did Not Conduct Thorough Biennial User Fee Reviews
          Report No. 14-P-0129

FROM:	         Arthur A. Elkins Jr.

TO:	           Maryann Froehlich, Acting Chief Financial Officer
               Office of the Chief Financial Officer

               Nancy K. Stoner, Acting Assistant Administrator 

               Office of Water       


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. The offices we identified with
primary jurisdiction over the audit issues and the responsibility for taking corrective action are the
Office of the Chief Financial Officer’s Office of Financial Management and the Office of Water’s
Office of Wastewater Management. This report represents the opinion of the OIG and does not
necessarily represent the final EPA position. Final determinations on matters in this report will be made
by EPA managers in accordance with established audit resolution procedures.

Action Required

The agency agreed with recommendations 1 through 4 and completed the corrective actions. These
recommendations are closed and no further action is required. The agency stated that it agrees with our
revised recommendation 5 and took the corrective action to request the Office of Management and
Budget (OMB) for an exception to charging National Pollutant Discharge Elimination System program
fees. Therefore, you are not required to provide a written response for recommendation 5. However, it
will remain open until the OMB approves your request. Should you choose to provide a final response,
we will post your response on the OIG’s public website, along with our memorandum commenting on
your response. You should provide your response as an Adobe PDF file that complies with the
accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as amended. We will post
this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Richard Eyermann,
acting Assistant Inspector General for Audit, at (202) 566-0565 or eyermann.richard@epa.gov;
or Paul Curtis, Product Line Director for Financial Statement Audits, at (202) 566-2523 or
curtis.paul@epa.gov.
EPA Did Not Conduct Thorough                                                                                                14-P-0129
Biennial User Fee Reviews


                                  Table of Contents 


Chapters
   1    Introduction ........................................................................................................      1


                Purpose .......................................................................................................    1     

                Background .................................................................................................       1     

                Scope and Methodology ..............................................................................               3     


   2    EPA Should Conduct More Thorough Biennial User Fee Reviews ..............                                                  4


                EPA Programs Generally Did Not Conduct Cost Reviews ..........................                                     4

                EPA Reports to OMB Were Not Complete ..................................................                            6

                EPA Did Not Follow OMB Policy to Request User Fee Exceptions ............                                          7

                EPA Did Not Review All Its Programs for Fee Potential ..............................                               7

                Improvements Made for FYs 2012–2013 Biennial Review..........................                                      8

                Conclusion...................................................................................................      8     

                Recommendations ......................................................................................             9     

                Preliminary Agency Actions .........................................................................               9     

                Agency Comments and OIG Evaluation ......................................................                          9


   3    NPDES Permit Program Should Consider Charging Fees .............................                                          10 


                EPA Did Not Propose NPDES Fees Since Early 1990s..............................                                    10 

                Conclusion...................................................................................................     11     

                Recommendations ......................................................................................            11     

                Agency Comments and OIG Evaluation ......................................................                         11 


   Status of Recommendations and Potential Monetary Benefits..............................                                        12




Appendices
   A    Details on Scope and Methodology..................................................................                        13


   B    Agency Response to Draft Report....................................................................                       16


   C    Distribution .........................................................................................................    19

                                         Chapter 1

                                          Introduction
Purpose
                We performed this audit to evaluate the U.S. Environmental Protection Agency’s
                (EPA’s) biennial user fee reviews. With the Administration’s current focus on
                reducing the federal budget deficit, we wanted to determine whether the EPA was
                conducting effective reviews of its user fee programs. The objectives of our audit
                were to determine whether the EPA:

                        Conducts biennial reviews of the EPA’s user fees and royalties programs.
                        Reviews all agency programs to determine whether fees should be
                         assessed for government services they provide.

Background
                In recent Office of Inspector General (OIG) reviews of two EPA user fee
                programs, we found that the programs were not conducting biennial cost reviews1
                as required by the Chief Financial Officers Act of 1990 (CFO Act) and as directed
                by Office of Management and Budget (OMB) Circular A-25. Without a cost
                study, the EPA programs did not have the cost data necessary to determine
                whether they should adjust their fees. Based on the findings in those reports,
                we conducted this additional work to determine the extent of biennial user fee
                reviews for all EPA fee programs.

                For budget purposes, the U.S. Government Accountability Office (GAO) defines
                user fees as fees assessed on users for goods or services provided by the federal
                government.2 User financing, in the form of user fees, is one approach to
                financing federal programs or activities. User fees assign part or all of the costs of
                these programs and activities—the cost of providing a benefit that is above and
                beyond what is normally available to the general public—to readily identifiable
                users of those programs and activities. Because user fees represent a charge for a
                service or benefit received from a government program, payers may expect a tight
                link between their payments and the cost of providing services.




1
  EPA OIG reports, EPA Should Update Its Fees Rule to Recover More Motor Vehicle and Engine Compliance

Program Costs, Report No. 11-P-0701, September 23, 2011; and EPA Is Not Recovering All Its Costs of the 

Lead-Based Paint Fees Program, Report No. 13-P-0163, February 20, 2013. 

2
  See GAO, A Glossary of Terms Used in the Federal Budget Process, GAO-05-734SP (Washington, D.C.: 

September 2005). 



14-P-0129                                                                                                   1
            Statutory Authorities

            The Independent Offices Appropriation Act (IOAA) of 1952 authorizes federal
            agencies to charge fees for the services they provide. The IOAA requires that each
            charge be fair and based on the costs to the government, the value of the service
            to the recipient, the public policy or interest served, and other relevant facts.
            The IOAA states that each service provided by a federal agency should be self-
            sustaining to the extent possible. In many instances, Congress has provided
            specific statutory authority to federal agencies to assess user fees.

            The CFO Act requires the Chief Financial Officer (CFO) to review, on a biennial
            basis, the fees, royalties, rents and other charges imposed by the agency for
            services and things of value it provides. The CFO shall make recommendations
            on revising those charges to reflect costs incurred by the agency in providing
            those services and things of value.

            Federal Policy, Standards and Guidance

            OMB Circular A-25, User Charges, dated July 8, 1993, implements Title V of the
            IOAA. It establishes federal policy regarding charges for government goods and
            services that convey special benefits to recipients beyond those accruing to the
            general public. It establishes that user charges should be set at a level sufficient to
            recover the full cost of providing the service, resource or good. It requires the
            agency to review the user charges for agency programs biennially, to include
            (1) assurance that existing charges are adjusted to reflect unanticipated changes in
            costs or market values, and (2) a review of all other agency programs to determine
            whether fees should be assessed for government services or the user of
            government goods or services. Agencies will generally implement user charges
            through the promulgation of regulations. When there are statutory prohibitions or
            limitations on charges, agencies should propose legislation to permit charges to be
            established. Agencies should discuss the results of the biennial review of user fees
            and any resultant proposals in the Agency Financial Report.

            The Statement of Federal Financial Accounting Standards (SFFAS) No. 4,
            Managerial Cost Accounting Standards and Concepts, dated July 31, 1995,
            provides that full cost should be considered as a primary basis for setting fees for
            government goods and services. The full cost of an output is the total amount of
            resources used to produce the output, including direct and indirect costs. Indirect
            costs are costs that are jointly or commonly used to produce two or more types of
            outputs but are not specifically identifiable with any of the outputs. Typical
            examples of indirect costs include general and administrative services; general
            research and technical support; security; rent; employee health and recreation
            facilities; and operating and maintenance costs for buildings, equipment and
            utilities.




14-P-0129                                                                                        2
            The GAO’s Standards for Internal Controls in the Federal Government requires
            that internal controls provide reasonable assurance of reliable financial reporting.
            GAO’s report, Federal User Fees – A Design Guide, GAO-08-386SP, dated
            May 2008, states that agencies must substantively review and report on their fees
            on a regular basis. This is to ensure that Congress, stakeholders and agencies have
            complete information about changing program costs and whether authorized
            activities align with program activities. Transparent processes for reviewing and
            updating fees help assure payers and other stakeholders that fees are set fairly and
            accurately and are spent on the programs and activities Congress intended.

            Responsible Offices

            The offices we identified with primary jurisdiction over the audit issues and the
            responsibility for taking corrective action on our recommendations are the Office
            of Financial Management within the Office of the Chief Financial Officer
            (OCFO) and the Office of Wastewater Management within the Office of Water.

Scope and Methodology
            We conducted this audit in accordance with generally accepted government
            auditing standards. Those standards require that we plan and perform the audit to
            obtain sufficient, appropriate evidence to provide a reasonable basis for our
            findings and conclusions based on our audit objectives. We believe that the
            evidence obtained provides a reasonable basis for our findings and conclusions
            based on our audit objectives. We conducted our audit from February through
            August 2013. Appendix A contains details on our scope and methodology.




14-P-0129                                                                                       3
                                   Chapter 2

            EPA Should Conduct More Thorough 

                Biennial User Fee Reviews 

            The EPA did not conduct thorough biennial user fee reviews for fiscal years
            (FYs) 2008–2009 and 2010–2011. Although the EPA prepared a biennial user fee
            review report, the EPA did not fully comply with the requirements to:

                  Conduct cost reviews to determine the full cost of providing a service.

                  Report biennial review results to OMB.

                  Request user fee exceptions by letter to the OMB Director.

                  Review all programs for fee potential.


            The CFO Act and OMB Circular A-25 require the agency to perform biennial cost
            reviews of agency user fee program charges and make recommendations on
            revising those charges to reflect agency costs incurred. The EPA’s OCFO did not
            fully oversee the biennial reviews or provide internal review guidance, and EPA
            program offices were not fully aware of the biennial review requirements. By not
            performing fully compliant biennial user fee reviews, the EPA may not have
            recovered all related program costs and collected funds that otherwise could have
            been available to reduce the federal budget deficit. We identified an EPA
            program—the Office of Water’s National Pollutant Discharge Elimination System
            (NPDES) program—with the potential to charge fees up to $8.9 million per year
            to recover its costs of providing a service. The EPA began improving its biennial
            review process with the FYs 2012–2013 review by issuing a biennial user fee
            review guide, training user fee program personnel to perform biennial reviews,
            and increasing headquarters oversight of the reviews.

EPA Programs Generally Did Not Conduct Cost Reviews

            The EPA’s programs that charge user fees, and programs with exceptions from
            charging user fees, generally did not conduct cost reviews to determine the full
            cost of providing a service. The programs need cost reviews to determine their
            actual costs and decide whether they need to adjust fees to reflect changes in costs
            or propose new charges, as required by OMB Circular A-25.

            OCFO’s Office of Financial Management (OFM) had oversight responsibility for
            the EPA’s biennial user fee reviews but did not provide sufficient oversight. OFM
            requested the EPA’s programs to provide updated fee descriptions and indicate
            whether fees (1) recover the full cost of the service provided, and (2) were revised
            or adjusted to reflect changes in the cost or value of the service. Since the user fee
            programs generally did not conduct cost reviews, the programs could not indicate
            whether they recovered the full cost of the service provided or revised fees to


14-P-0129                                                                                        4
            reflect changes in the costs. OFM did not fully evaluate the information it
            received or follow up with the programs to obtain all the cost information it
            needed. OFM’s biennial user fee report to OMB did not indicate whether fees
            recovered the full cost of the service provided, and for some types of fees whether
            the fees were revised or adjusted.

            Some fee programs—including pesticides maintenance, pesticides registration,
            Clean Air Act Part 71 Operating Permits and Freedom of Information Act—
            performed a cost analysis to comply with reporting requirements other than the
            biennial review requirement. Some of these cost analyses did not include all
            indirect costs to obtain the full cost of their services, as directed by SFFAS No. 4
            and OMB Circular A-25.

            EPA’s Office of Research and Development (ORD) did not conduct biennial cost
            reviews for its programs that collected licensing fees and royalties. However,
            ORD may not be subject to the OMB Circular A-25 requirement to biennially
            review program costs because ORD does not base its licensing fees and royalties
            on total program costs. OMB Circular A-25 provides guidance regarding the
            assessment of user charges under statutes other than the IOAA, but only to the
            extent permitted by law and not inconsistent with the statute. ORD programs
            generally establish their fees by individual agreement, based on specific statutory
            authority instead of full cost recovery guidance in SFFAS No. 4 and
            OMB Circular A-25. For example:

               	 The Stevenson–Wydler Technology Innovation Act of 1980 promotes the
                  use of federally funded technology developments by state and local
                  governments and the private sector. ORD collects licensing fees and
                  royalties from negotiated license agreements on patented technologies that
                  the EPA owns. ORD receives an up-front negotiated licensing fee and
                  annual royalties based on a percentage or amount of the licensee’s profit
                  from sale or use of the technology.

               	 The Environmental Research, Development, and Demonstration
                  Authorization Act of 1980 (42 U.S. Code § 4370), Reimbursement for Use
                  of Facilities, authorizes the Administrator to allow appropriate use of EPA
                  research and test facilities by outside groups or individuals and allows the
                  agency to receive reimbursement for costs incurred or waive
                  reimbursement for nonprofit private or public entities when the
                  Administrator finds this to be in the public interest. ORD uses outside
                  user’s agreements to charge users for use of its research and test facilities.
       
               	 The Federal Technology Transfer Act of 1986 authorizes government
                  laboratories to enter into cooperative research and development
                  agreements with universities and the private sector for technological
                  transfer for commercial purposes. These agreements are for joint research
                  projects where both parties receive benefits. When a fee is involved, it


14-P-0129                                                                                          5
                   usually reimburses the EPA only for the cost of supplies, travel or
                   contractor costs.

            From the EPA’s list of programs with user fee exceptions, we identified the
            NPDES program as a potential fee program. The NPDES program has the
            potential to charge fees up to $8.9 million per year to recover its costs of issuing
            permits. Chapter 3 discusses the NPDES permit program’s potential for proposing
            fees.

EPA Reports to OMB Were Not Complete
            The EPA’s biennial user fee reports to OMB were not complete. The EPA
            included a summary biennial user fees report, Biennial User Fees, in the
            Agency Financial Report, and submitted more detail in a memorandum to OMB
            describing the programs with existing fees, proposed fees and fee exceptions. The
            EPA’s summary report in the FY 2011 Agency Financial Report did not discuss
            the results of the biennial review and any resultant fee proposals. Further, the
            EPA’s more detailed memorandum report to OMB provided incomplete cost
            information. According to OMB Circular A-25, agencies should discuss the
            results of the biennial review of user fees and any resultant proposals in the
            Agency Financial Report. However, the EPA’s reports were not complete because
            the fee programs updated the fee descriptions from the prior biennial review
            without conducting a thorough cost review, and OCFO did not provide sufficient
            oversight and validate those reviews. Without complete information, the reports to
            OMB did not clearly present the condition of EPA fee programs and provide
            stakeholders with complete information. Transparent processes for reviewing and
            updating fees help assure payers and others that fees are set fairly and accurately.

            We found the following areas where the EPA’s reports were not complete:

               	 The EPA’s FY 2011 Agency Financial Report did not discuss the results
                  of the biennial reviews. 
                   
               	 Prior to FY 2010, the EPA reported its financial performance in the annual
                  Performance and Accountability Report but its FY 2009 Performance and
                  Accountability Report did not include a biennial user fee report. 
       
               	 The EPA’s FYs 2008–2009 and 2010–2011 detailed biennial user fee
                  reports included the revenue collected for each existing fee program but
                  not the related program costs. Programs that requested an exception from
                  charging fees did not report their program costs. 
       
               	 The EPA could not provide documentation to support its transmittal of the
                  FY 2011 detailed biennial user fees memorandum report to OMB.




14-P-0129                                                                                      6
EPA Did Not Follow OMB Policy to Request User Fee Exceptions
            The EPA did not follow the OMB Circular A-25 procedure for requesting user fee
            exceptions by letter to the OMB Director for programs that did not charge fees.
            OMB Circular A-25 provides that agency heads request an exception by letter to
            the OMB Director. EPA program managers and staff did not have the EPA
            Administrator request fee exceptions by letter to the OMB Director because they
            were not aware of the OMB requirement to do so. By not getting fee exception
            approval from OMB, the EPA did not have OMB’s assurance that fees were not
            necessary. The EPA may not have charged appropriate fees in programs to reduce
            the federal budget deficit.

            The OCFO stated it included the programs reporting exceptions in each biennial
            review detailed report to the OMB. Since the OCFO did not receive feedback
            from the OMB on its detailed reports, the OCFO believed that its method of
            reporting agency user fee activities was acceptable to OMB. However, when we
            asked the OMB about EPA user fee exceptions, the OMB stated that it had not
            received or granted user fee exceptions to the EPA in recent years. The OMB
            stated that agency heads may request an exception by letter to the OMB Director.

EPA Did Not Review All Its Programs for Fee Potential

            Prior to the FYs 2012–2013 biennial review, the EPA did not review all agency
            programs to determine whether they should assess fees for government services
            they provide. OMB Circular A-25 directs the agency to conduct biennial reviews
            of programs with user charges and all other programs to determine whether it
            should assess fees for government services it provides. Program office personnel
            were not aware of the biennial review requirement, and OCFO did not provide
            internal guidance for reviewing all agency programs. By not reviewing all agency
            programs, the EPA may not have identified all programs eligible for user fee
            charges and may have missed an opportunity to charge appropriate fees.

            OCFO and program office personnel stated that for biennial reviews conducted
            through the FYs 2010–2011 review, they reviewed the identified user fee
            programs but did not review all other agency programs. With our own limited
            research, we identified the EPA’s Underground Injection Control permitting
            program under the Safe Drinking Water Act as a potential user fee program. The
            EPA did not include the program in the biennial review, although the program
            provided a service to specific recipients for which the EPA did not charge fees.
            This is an example of an activity that the EPA should include in the biennial
            review to determine whether user fees should be assessed.




14-P-0129                                                                                      7
Improvements Made for FYs 2012–2013 Biennial Review

                Based on the findings of previous OIG audits of fee programs, the OCFO has
                taken action to help the EPA’s fee programs conduct a more thorough FYs 2012–
                2013 review. The OCFO issued a biennial user fee review guide on March 8,
                2013, and conducted biennial user fee review training for the user fee programs
                on March 21, 2013. The OCFO’s guidance for the FYs 2012–2013 review
                provides the roles and responsibilities, review procedures and summary cost
                worksheets for completing the review. Some significant provisions are:

                        OFM conducts the biennial user fee reviews. 

                        Program offices provide the costs of the program activities. 

                        Program offices review all activities for potential new users. 

                        The Office of Budget collaborates with program offices to review 

                         opportunities for new or updated fees.

                The OCFO increased its oversight of the FYs 2012–2013 biennial review by
                assigning an OCFO staff member to each existing fee program to oversee its
                review. Based on a prior OIG audit recommendation,3 the OCFO also conducted a
                FY 2011 biennial cost review of the EPA’s Motor Vehicle and Engine
                Compliance Program in the Office of Air and Radiation. The OCFO used the
                review experience to help develop its review process for future biennial reviews.

Conclusion

                The EPA did not conduct thorough biennial user fee reviews for FYs 2008–2009
                and 2010–2011. The EPA should follow the OMB biennial review policy to
                conduct cost reviews, include complete information in OMB reports, request user
                fee exceptions, and review all programs for fee potential. By not performing fully
                compliant biennial user fee reviews in the past, the EPA may not have recovered
                all related program costs and collected funds that otherwise could have been
                available to reduce the federal budget deficit. We believe that the EPA could help
                the federal government reduce the budget deficit by performing more thorough
                biennial user fee reviews that identify potential additional revenue. We identified
                an EPA program with the potential to charge fees up to $8.9 million per year to
                recover its costs of providing a service.




3
 EPA OIG report, EPA Should Update Its Fees Rule to Recover More Motor Vehicle and Engine Compliance
Program Costs, Report No. 11-P-0701, September 23, 2011, recommended that the EPA conduct biennial reviews
of the Motor Vehicle and Engine Compliance Program.


14-P-0129                                                                                                    8
Recommendations

            We recommend that the Chief Financial Officer:

               1.	 Include in the Agency Financial Report a discussion of the biennial user fee
                   review results and any resultant proposals, to fully comply with OMB
                   Circular A-25 reporting requirements.

               2.	 Coordinate with programs that have claimed an exemption to charging fees
                   under OMB Circular A-25 to have the EPA Administrator request an
                   exception by letter to the OMB Director.

               3.	 Request the fee exception programs to report their program costs to OCFO
                   to provide complete information about program fees and costs and to help
                   determine whether fee exception programs should assess fees.

Preliminary Agency Actions

            The OCFO issued a biennial user fee review guide that instructed the program
            offices to provide costs of the program activities and review all activities for
            potential users. The OCFO also increased its oversight of the FYs 2012–2013
            biennial review. Therefore, we make no recommendations to develop a review
            guide, conduct cost reviews, review all activities for potential users and increase
            headquarters oversight.

Agency Comments and OIG Evaluation
            The agency agreed with our findings and recommendations and provided intended
            corrective actions and estimated completion dates.




14-P-0129                                                                                         9
                                  Chapter 3

                    NPDES Permit Program 

                 Should Consider Charging Fees 

            The EPA did not review the NPDES program’s permit costs since the early 1990s
            to determine whether the agency should assess fees for permits in the states,
            territories and tribes in which the EPA is the permitting authority. Title V of the
            IOAA authorizes an agency to charge a fee for a service the agency provides. Due
            to other priorities, the EPA has not considered whether it should assess fees for
            NPDES permits or reintroduce a proposal for a fee regulation since the EPA
            withdrew an internal proposal from the early 1990s for a regulation to allow the
            EPA to charge fees for issuing federal NPDES permits. By not proposing the fees,
            the EPA may have missed an opportunity to charge appropriate fees to recover its
            costs. Based on the EPA’s recent cost estimate of $8.9 million per year for issuing
            federal permits, the NPDES program has the potential to charge up to $8.9 million
            in fees to recover its costs.

EPA Did Not Propose NPDES Fees Since Early 1990s
            Although the Clean Water Act does not address the subject of federal fees for
            federally issued NPDES permits, the IOAA authorizes federal agencies to charge
            fees for the services they provide. The EPA did not review the NPDES permit
            program costs since the EPA considered— but withdrew—a proposal from the
            early 1990s for a regulation under the authority of the IOAA to allow the EPA to
            charge fees for issuing federal NPDES permits. Due to other priorities, the Office
            of Water did not consider whether it should assess fees for NPDES permits or
            attempt a new proposed regulation to charge NPDES fees.

            The Office of Water included the NPDES permit program on the FYs 2008–2009
            and 2010–2011 user fee exceptions list that it forwarded to the OCFO for
            inclusion in the biennial user fee reports to OMB. The Office of Water believed
            that OMB approved an exception for NPDES because the Office of Water did not
            receive a response from OCFO or OMB about the exception. The Office of Water
            stated that it assumed that OCFO had received a waiver from OMB that granted
            the NPDES permit program an exception from charging fees. However, OMB
            stated that it had not received or approved any fees exception requests from the
            EPA in recent years. By not proposing NPDES fees, the EPA may have missed an
            opportunity to charge appropriate fees to recover its costs.

            On May 13, 2013, subsequent to the start of our audit, the NPDES permitting
            program provided an analysis of its estimated annual direct labor costs totaling
            $8,875,031. Due to time constraints, the cost analysis did not include other direct
            costs, such as contracts, supplies and travel. According to the Office of Water, the
            NPDES permit actions may include those types of costs, but the total amount of


14-P-0129                                                                                     10
            such costs would not significantly alter the estimate. The analysis also did not
            include indirect costs needed for full costing, as required by SFFAS No. 4 and
            OMB Circular A-25. Based on the EPA’s cost estimate for issuing federal
            permits, the NPDES program has the potential to charge up to $8.9 million
            per year in fees to recover its costs.

Conclusion
            According to the OMB’s FY 2014 budget overview, the President is committed to
            continuing to reduce the federal budget deficit. We believe that the EPA could
            help the federal government in this endeavor by collecting fees to recover its
            NPDES permitting costs. The EPA has authority under the IOAA to charge fees
            for NPDES permits, and the OMB Circular A-25 general policy is that user
            charges will be instituted through the promulgation of regulations. Therefore, the
            EPA should consider recovering its NPDES permit program costs by charging
            fees for NPDES permits. The EPA could collect an estimated $8.9 million in fees
            per year, which would help reduce the federal budget deficit.

Recommendations
            We recommend that the Assistant Administrator for Water:

               4.	 Conduct a cost analysis of all direct and indirect costs to determine the
                   EPA’s full cost of issuing NPDES permits.

               5.	 Apply federal user fee policy in determining whether to (a) charge fees for
                   issuing federal NPDES permits in which the EPA is the permitting
                   authority, or (b) request an exception from OMB to charging fees.

Agency Comments and OIG Evaluation

            The agency agreed with recommendation 4 and provided its corrective action and
            completion date. The agency did not agree with part of our original
            recommendation 5 in the draft report to propose a regulation to allow the EPA to
            charge fees, as appropriate. The Office of Water stated that it was working with
            the OCFO to request an exception from an NPDES user fee. We agreed with the
            agency’s proposed alternative action and we revised recommendation 5
            accordingly. We removed the proposal for a regulation to charge fees and added
            an option for requesting an exception to fees, to which the Office of Water stated
            that it will agree. Although the EPA requested a fees exception on December 6,
            2013, we consider recommendation 5 to be open until the OMB approves the
            request.




14-P-0129                                                                                      11
                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                          POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                       BENEFITS (in $000s)

                                                                                                              Planned
    Rec.    Page                                                                                             Completion   Claimed      Agreed-To
    No.      No.                          Subject                        Status1      Action Official           Date      Amount        Amount

     1        9     Include in the Agency Financial Report a               C       Chief Financial Officer    12/31/13
                    discussion of the biennial user fee review results
                    and any resultant proposals, to fully comply with
                    OMB Circular A-25 reporting requirements.

     2        9     Coordinate with programs that have claimed an          C       Chief Financial Officer    12/31/13
                    exemption to charging fees under OMB Circular
                    A-25 to have the EPA Administrator request an
                    exception by letter to the OMB Director.

     3        9     Request the fee exception programs to report their     C       Chief Financial Officer    6/30/13
                    program costs to OCFO to provide complete
                    information about program fees and costs and to
                    help determine whether fee exception programs
                    should assess fees.

     4       11     Conduct a cost analysis of all direct and indirect     C       Assistant Administrator    6/30/13
                    costs to determine the EPA’s full cost of issuing                     for Water
                    NPDES permits.

     5       11     Apply federal user fee policy in determining           O       Assistant Administrator                  $17,8004
                    whether to (a) charge fees for issuing federal                        for Water
                    NPDES permits in which the EPA is the permitting
                    authority, or (b) request an exception from OMB to
                    charging fees.




1    O = Recommendation is open with agreed-to corrective actions pending.

     C = Recommendation is closed with all agreed-to actions completed.

     U = Recommendation is unresolved with resolution efforts in progress.





4
 OIG’s policy is to base efficiencies from recurring events on the projected monetary benefit for the current and
following year. The potential monetary benefit represents the recurring cost savings from a proposed regulation to
allow the EPA to charge NPDES permit fees, based on the estimated program costs for the current and following
year.


14-P-0129                                                                                                                                     12
                                                                                   Appendix A

                 Details on Scope and Methodology
We reviewed the EPA’s processes for conducting biennial user fee reviews. To gain an
understanding of the processes, we:

      Reviewed the applicable laws, federal policy, standards and guidance, and relevant prior
       audit reports.
      Reviewed the EPA’s biennial review procedures and biennial review reports for
       FYs 2008–2009 and 2010–2011.
      Interviewed personnel in OCFO and program offices with user fees or royalties, proposed
       user fees and exceptions to user fees.
      Examined OCFO’s March 2013 biennial user fee review guide and training materials.
      Reviewed the EPA’s 13 program offices’ FY 2012 management integrity assurance
       letters for reported internal control weaknesses.

We interviewed personnel regarding the following programs and their biennial user fee reviews:

      Pesticides maintenance fee (Federal Insecticide, Fungicide, and Rodenticide Act). 

      Pesticides registration service fee (Pesticide Registration Improvement Extension Act). 

      Premanufacture Notice program. 

      Operating permits program (Clean Air Act, 40 Code of Federal Regulations, 

       Parts 70 and 71). 

      Research and development licensing fees and royalties. 

      Freedom of Information Act. 

      NPDES permitting. 

      Acid Rain Allowance Transfer program. 

      ENERGY STAR program. 

      Resource Conservation and Recovery Act permitting.


We examined OCFO’s work plan and supporting documentation for its biennial user fee review
of the FY 2011 Motor Vehicle and Engine Compliance Program. We did not verify the accuracy
of that program’s biennial review cost analysis.

We did not assess the reliability of data in any information systems because their use did not
materially affect our findings, conclusions or recommendations. We accessed fee collection
information in Compass Financials, the agency’s accounting system. We did not review the
internal controls over Compass Financials from which we obtained financial data, but relied on
the review conducted during the audit of the EPA’s FY 2012 financial statements.




14-P-0129                                                                                        13
Prior Reports Reviewed

We reviewed the prior EPA OIG and GAO reports listed in table A-1. The two EPA OIG reports
had findings and recommendations related to fee collections and recovery of program costs. The
three GAO reports contained information relevant to our review. We used the information and
issues disclosed in the EPA OIG and GAO reports to help identify issues as we conducted our
audit.

Table A-1: Prior reports reviewed
                        Report Title                        Report No.                Date
 EPA Is Not Recovering All Its Costs of the Lead-Based
                                                         EPA OIG 13-P-0163    February 20, 2013
 Paint Fees Program
 2012 Annual Report: Opportunities to Reduce
 Duplication, Overlap and Fragmentation, Achieve         GAO-12-342SP         February 28, 2012
 Savings, and Enhance Revenue
 EPA Should Update Its Fees Rule to Recover More
                                                         EPA OIG 11-P-0701    September 23, 2011
 Motor Vehicle and Engine Compliance Program Costs

 Federal User Fees: A Design Guide                       GAO-08-386SP         May 29, 2008

 Federal User Fees: Some Agencies Do Not Comply
                                                         GAO/GGD-98-161       June 30, 1998
 with Review Requirements

Source: OIG analysis.

EPA OIG Report No. 13-P-0163 disclosed that an EPA program was not collecting enough fees
to recover all the costs of administering its program. The EPA had not conducted a formal cost
study to determine its actual program costs, and needed to update its fees rule to reflect the
amount of fees necessary for the program to recover its costs. The EPA agreed with the report’s
recommendations and said it planned to update the fees rule and conduct biennial reviews.

GAO Report No. GAO-12-342SP presented cost savings or revenue enhancement opportunities,
including GAO’s 2011 survey of federal agency fee reviews. The survey responses indicated that
for most fees, agencies (1) had not discussed fee review results in annual reports, and (2) had not
reviewed the fees and were inconsistent in their ability to provide fee review documentation.

EPA OIG Report No. 11-P-0701 disclosed that an EPA program was not collecting enough fees
to recover all reasonable program costs, based on the EPA’s rough cost estimate conducted
during our audit. The program had not conducted a formal cost study since 2004 to determine its
actual program costs, and had not updated the fees rule to recover more costs. The EPA agreed
with the report’s recommendations and said it planned to update the fees rule and conduct
biennial reviews.

GAO Report No. GAO-08-386SP reported on a study of how user fee design characteristics may
influence the effectiveness of user fees. GAO examined how the four key design and
implementation characteristics of user fees—how fees are set, collected, used and reviewed—



14-P-0129                                                                                         14
may affect the economic efficiency, equity, revenue adequacy and administrative burden of cost-
based fees. The principles outlined in the design guide present a framework for user fee design.

GAO Report No. GAO/GGD-98-161 was a response to a congressional request to review
agencies’ adherence to the user fee review and reporting requirements in the CFO Act and
OMB Circular A-25. The report disclosed that six of the 24 agencies reviewed all of their
reported user fees at least every 2 years as required by OMB Circular A-25 during FYs 1993
through 1997, three reviewed all of their reported fees at least once, 11 reviewed some of their
reported fees, and four did not review any of their reported fees during this period. The agencies
provided various reasons for not reviewing fees, including insufficient cost data and that some of
the fees being set by legislation could not be changed without new legislation.




14-P-0129                                                                                       15
                                                                                   Appendix B

                  Agency Response to Draft Report


                                (Received September 27, 2013)
MEMORANDUM

SUBJECT:	 Response to Office of Inspector General Draft Report, Project No. OA-FY13-0103
          “EPA Did Not Conduct Thorough Biennial User Fee Reviews,” dated August 12,
          2013

FROM:         Maryann Froehlich /s/
              Acting Chief Financial Officer

              Nancy K. Stoner, Acting Assistant Administrator /s/ 

              Office of Water 


TO:	          Richard Eyermann, Acting Assistant Inspector General
              Office of Audit

Thank you for the opportunity to respond to the issues and recommendations in the subject audit
report. The following is a summary of the agency’s overall position, along with our responses on
each of the report recommendations. For those report recommendations with which the agency
agrees, we have provided high-level intended corrective actions and estimated completion dates.

AGENCY’S OVERALL POSITION

The agency concurs with the OIG’s overall recommendations. During FY 2013, the EPA
improved its biennial review process by issuing a biennial user fee review; conducting webinars
to train personnel on the review process, and increasing oversight of these reviews. As part of
our implementation guidance we also evaluated the cost of providing the government services
and fees for both existing and potential programs.
The agency will:

   	 Discuss the results of the FY 2013 biennial user fee review in the Agency’s Financial
      Report.

   	 Make recommendations, to the Office of Management and Budget Director, for
      exceptions to charge user fees for the EPA programs that meet the criteria outlined in the
      OMB Circular A-25, Section 6c.

However, the Office of Water does not concur with the recommendation to propose a regulation
to allow the EPA to charge fees.



14-P-0129                                                                                     16
CONTACT INFORMATION

If you have any questions regarding this response, please contact Stefan Silzer, Director of the
Office of Financial Management on (202) 564-5389 or Sheila Frace, Deputy Office Director,
Office of Wastewater Management, Office of Water on (202) 564-0748.


Attachment

cc: David Bloom
    Joshua Baylson
    Stefan Silzer
    John O’Connor
    Carol Terris
    Jeanne Conklin
    Meshell Jones-Peeler
    Dale Miller
    Sandy Dickens
    Barbara Freggens
    Janet McCabe
    Betsy Shaw
    Maureen Hingeley
    Jim Jones
    Mike Shapiro
    Andrew Sawyers
    Sheila Frace
    Deborah Nagle
    Brian Frazer
    Louis Eby
    Marilyn Ramos
    Lek Kadeli
    Arthur Elkins
    Charles Sheehan
    Aracely Nunez-Mattocks
    Alan Larsen
    Carolyn Copper
    Patricia Hill
    Patrick F. Sullivan
    Paul Curtis
    Arthur Budelier
    Susan Barvenik
    Wendy Swan
    Sheree James




14-P-0129                                                                                          17
AGENCY’S RESPONSE TO REPORT RECOMMENDATIONS


                                            High-Level Intended            Estimated Completion
No.         Recommendation                  Corrective Action(s)               by Quarter and
                                                                                 Fiscal Year
                                                                              st
      Include in the Agency            The Office of the Chief              1 Quarter FY 2014
 1    Financial Report a discussion    Financial Officer concurs with
      of the biennial user fee         the overall recommendation.
      review results and any           The EPA will include a
      resultant proposals, to fully    discussion of the results of the
      comply with OMB Circular         biennial user fee review in the
      A-25 reporting requirements.     FY 2013 Agency Financial
                                       Report AFR.
 2    Coordinate with programs         The OCFO concurs with the            1st Quarter FY 2014
      that have claimed an             overall recommendation. The
      exemption to charging fees       agency will submit a request to
      under OMB Circular A-25,         the Director of the OMB for
      section 6c (2) or (3) to have    exceptions to charge user fees
      the EPA Administrator            for the EPA programs that meet
      request an exception by letter   the criteria outlined in Circular
      to the OMB Director.             A-25, Section 6c.
 3    Request the fee exception        The OCFO concurs with the                 Completed
      programs to report their         overall recommendation.              3rd Quarter FY 2013
      program costs to OCFO to         During the agency’s FY 2013
      provide complete                 biennial user fee review, the
      information about program        agency requested and received
      fees and costs and to help       the estimated costs from its
      determine whether fee            existing and potential fee
      exception programs should        programs.
      assess fees.
 4    Conduct a cost analysis of all   The Office of Water concurs               Completed
      direct and indirect costs to     with the overall                     3rd Quarter FY 2013
      determine the EPA’s full cost    recommendation. The OW
      of issuing National Pollutant    conducted the required NPDES
      Discharge Elimination            cost analysis.
      System permits.
 5    Apply federal user fee policy    The OW does not concur with          1st Quarter FY 2014
      in determining whether to        the recommendation to propose
      charge fees for issuing          a regulation to allow the EPA to
      federal NPDES permits in         charge fees. We are working
      which the EPA is the             with OCFO to request an
      permitting authority and         exception from a NPDES user
      propose a regulation to allow    fee.
      the EPA to charge fees, as
      appropriate.




14-P-0129                                                                                     18
                                                                                  Appendix C

                                     Distribution
Office of the Administrator
Chief Financial Officer
Assistant Administrator for Water
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Deputy Chief Financial Officer
Principal Deputy Assistant Administrator for Water
Director, Office of Financial Management, Office of the Chief Financial Officer
Deputy Director, Office of Financial Management, Office of the Chief Financial Officer
Director, Office of Financial Services, Office of the Chief Financial Officer
Deputy Director, Office of Financial Services, Office of the Chief Financial Officer
Audit Follow-Up Coordinator, Office of the Chief Financial Officer
Audit Follow-Up Coordinator, Office of Water
Audit Follow-Up Coordinator, Office of Financial Management, Office of the
       Chief Financial Officer




14-P-0129                                                                                19
